No. __-_________
IN THE SUPREME COURT OF THE UNITED STATES

ALFORD DANTA TARPLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Kevin Joel Page, do certify that on this date, December 22, 2020, pursuant to
Supreme Court Rules 29.3 and 29.4, I have served the attached Motion for Leave to
Proceed in Forma Pauperis and Petition for a Writ of Certiorari on each party to the
above proceeding, or that party's counsel, and on every other person required to be
served. I have served the Supreme Court of the United States via Federal Express,
priority overnight. The Solicitor Generalwas served by depositing an envelope
containing the above documents in the United States mail properly addressed to him
and with first-class postage prepaid. Assistant United States Attorney J. Stevenson
Weimer was served by email, honoring the request of the Supervisor of the Appellate
Division of the United States Attorney’s Office for the Northern District of Texas.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

J. Stevenson Weimer
Assistant United States Attorney
Burnett Plaza Suite 1700
801 Cherry Street, Unit #4
Fort Worth, Texas 76102-6882
Jay.Weimer@usdoj.gov

_________________________
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

Counsel of Record

/s/ Kevin Joel Page
KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

